A P P E N Z) X X

C

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2784
Trinidad Jesus Garcia
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:20-cv-01410-PAM)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
December 16, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

A PPf A/Z) X X
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2784

Trinidad Jesus Garcia
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the District of Minnesota
(0:20-cv-01410-PAM)
JUDGMENT

Before LOKEN, COLLOTON, and BENTON, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
* t•

November 02, 2020
x

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

APPENDIX

6

CASE 0:15-cr-00260-PAM-TNL Document 1038 Filed 08/14/20 Page 1 of 1

UNITED STATES DISTRICT COURT
District of Minnesota
United States of America,

Case Nos. 15cr260 (11) PAM/TNL,
20cvl410 PAM

)

Plaintiff
v.

JUDGMENT IN A CRIMINAL CASE

Trinidad Jesus Garcia,
Defendant.

□

Jury Verdict. This action came before the Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.
Decision by Court. This action came to trial or hearing before the Court. The issues have
been tried or heard and a decision has been rendered.
t

IT IS ORDERED THAT:
Defendant’s Motion to Vacate (Docket No. 1015) is DENIED.
i

Date: August 14, 2020
KATE M. FOGARTY. CLERK

CASE 0:15-cr-00260-PAM-TNL Doc. 1037 Filed 08/13/20 Page 1 of 10

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Case No. 15-cr-260(l 1) (PAM/TNL)

United States of America,
Plaintiff,

MEMORANDUM AND ORDER

v.

Trinidad Jesus Garcia,
Defendant.
This matter is before the Court on Defendant’s Motion to Vacate under 28 U.S.C.
§ 2255. For the following reasons, the Motion is denied.
BACKGROUND
In September 2015, Defendant Trinidad Jesus Garcia was indicted for his part in a
large-scale conspiracy to distribute methamphetamine. Although the Court appointed
counsel to represent him, Garcia ultimately decided that he wished to proceed pro se and
the Court granted that request. (Docket No. 224.) Garcia then filed no fewer than thirty
pretrial motions, in addition to responding to the Magistrate Judge’s report and
recommendations regarding those motions. Although most of Garcia’s motions were
denied, the Court repeatedly noted that Garcia was competent to represent himself, and
indeed commended Garcia for his ability to represent his own interests. (Plea Hr’g Tr.
(Docket No 613) at 28.)
Garcia ultimately pled guilty to an Information that charged him with possession
with intent to distribute methamphetamine. The plea agreement provided that, while the
Government believed that Garcia possessed 35 grams or more of actual methamphetamine,

CASE 0:15-cr-00260-PAM-TNL Doc. 1037 Filed 08/13/20 Page 2 of 10

Garcia could challenge the amount of methamphetamine at sentencing. (Docket No. 493.)
Garcia did in fact challenge the purity of the methamphetamine, cross-examining the
Government’s witness in this regard. (Sentencing Tr. (Docket No. 908) at 11-17.) The
Court overruled his objections, found Garcia responsible 36.58 grams of actual
methamphetamine, and sentenced him to 137 months’ imprisonment and three years’
supervised release. (Docket No. 853.)
Garcia appealed, represented by the attorney who acted as his standby counsel
before this Court. His primary argument on appeal was that the Court erred in excluding
from its drug-quantity calculations the portion of methamphetamine intended for Garcia’s
personal use. United States v. Escobar. 909 F.3d 228, 244 (8th Cir. 2018). As the Court
of Appeals noted, Garcia did not raise this challenge before this Court, challenging only
the purity of the methamphetamine involved. Id Because Garcia failed to raise his
personal-use objection despite several opportunities to do so, the appellate court found that
he could not argue that this Court “erred by accepting an admitted fact.” Id at 245. The
Eighth Circuit thus affirmed Garcia’s sentence. Id at 247.
Garcia timely filed the instant Motion to Vacate under 28 U.S.C. § 2255. He raises
seven grounds for relief. Ground One claims that Garcia’s stand-by counsel rendered
ineffective assistance for allegedly failing to inform Garcia of a Bruton issue that would
have required severance from his co-Defendants, and for failing to request that Garcia
undergo a mental-health evaluation before Garcia was allowed to proceed pro se. Ground
Two asserts that Garcia’s appellate counsel was ineffective for failing to raise four issues
on appeal. Ground Three challenges the sufficiency of the evidence regarding Garcia’s
2

CASE 0:15-cr-00260-PAM-TNL Doc. 1037 Filed 08/13/20 Page 3 of 10

intent to distribute. Ground Four argues that a formal objection to his sentence was not
necessary for the appellate court to review the sentence for reasonableness. Ground Five
has two parts. Part 1 asserts that Garcia’s appellate counsel failed to raise on appeal a
grouping issue, and that this failure constituted ineffective assistance. Part 2 argues that
this Court erred by grouping possession under 21 U.S.C. § 844 with § 841(a)(i). Ground
Six similarly has two parts. The first asserts that the quantity of drugs possessed for
personal use should not be counted as relevant conduct toward a possession-with-intentto-distribute charge, and the second argues that the use of criminal history to increase the
applicable sentencing range constituted a violation of Double Jeopardy. Finally, Count
Seven contends that the Government violated Garcia’s Fifth Amendment rights by
charging him by information, rather than indictment.
DISCUSSION
A prisoner in custody under [federal] sentence ... claiming the right to be
released upon the ground that the sentence was imposed in violation of the
Constitution or laws of the United States, or that the court was without
jurisdiction to impose such sentence ... or is otherwise subject to collateral
attack, may move the court which imposed the sentence to vacate, set aside
or correct the sentence.
28 U.S.C. § 2255(a). Relief under § 2255 “is reserved for transgressions of constitutional
rights and for a narrow range of injuries that could not have been raised on direct appeal
and, if uncorrected, would result in a complete miscarriage of justice.” United States v.
Apfel. 97 F.3d 1074, 1076 (8th Cir. 1996). Thus, not all claims of error in a conviction or
sentence are cognizable in a § 2255 proceeding. Sun Bear v. United States. 644 F.3d 700,
704 (8th Cir. 2011) (en banc). The petitioner bears the burden to establish that his
3

CASE 0:15-cr-00260-PAM-TNL Doc. 1037 Filed 08/13/20 Page 4 of 10

conviction or sentence violated either the Constitution or federal law. United States v. Hill.
215 F. Supp. 3d 823, 826 (D. Minn. 2016) (Kyle, J.).
Although § 2255 requires a Court to hold an evidentiary hearing “[ujnless the
motion and the files and records of the case conclusively show that the prisoner is entitled
to no relief,” 28 U.S.C. § 2255(b), a “petition can be dismissed without a hearing if (1) the
petitioner’s allegations, accepted as true, would not entitle the petitioner to relief, or (2) the
allegations cannot be accepted as true because they are contradicted by the record,
inherently incredible, or conclusions rather than statements of fact.” Engelen v. United
States. 68 F.3d 238, 240 (8th Cir. 1995) (citations omitted).

Garcia’s claims are

contradicted by the record, and he is not entitled to relief on any of them. The Court
therefore declines to hold an evidentiary hearing.
A.

Ineffective Assistance of Counsel
Garcia raises multiple claims of ineffective assistance of counsel. To prevail on a

claim that counsel rendered ineffective assistance, Garcia must establish both that his
attorney’s performance was deficient and that he was prejudiced by the deficient
performance. Strickland v. Washington. 466 U.S. 668, 689 (1984). The Court presumes
that the attorney provided effective representation, and “will not second-guess strategic
decisions or exploit the benefits of hindsight.” Henderson v. Norris. 118 F.3d 1283, 1287
(8th Cir. 1997). Indeed, the Court’s “scrutiny of counsel’s performance must be highly
deferential.” Strickland. 466 U.S. at 689.
To demonstrate prejudice, Garcia must establish that “there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would
4

CASE 0:15-cr-00260-PAM-TNL Doc. 1037 Filed 08/13/20 Page 5 of 10

have been different.” Id at 694. If Garcia cannot establish prejudice, the Court need not
address the reasonableness of the representation, because the failure to establish prejudice
is dispositive of a § 2255 claim of ineffective assistance. Apfeh 97 F.3d at 1076.
1.

Bruton issue and severance

In Bruton v. United States. 391 U.S. 123, 126 (1968), the Supreme Court held that
admission of a codefendant’s confession at trial is prejudicial error if that confession
implicates a jointly tried defendant. In June 2016, months after Garcia was allowed to
represent himself, Garcia’s standby counsel wrote to the Assistant United States Attorney
stating that, unless Garcia decided to plead guilty, it would be necessary to sever his case
from his co-Defendants because “there is a Bruton issue involving [Garcia’s] statement to
police.” (Docket No. 1016 at 8.) Garcia’s claim in this Motion appears to be that his
attorney did not inform him of this Bruton issue, and if he had known that his case would
be severed from his co-Defendants, he would not have pleaded guilty.
The record refutes Garcia’s claim that he was unaware of any Bruton issue. In May
2016, Garcia requested a severance, arguing in part that a severance was necessary because
of the potential prejudice of his co-Defendants’ statements to police. (Docket No. 480.)
He pled guilty before those motions were fully resolved. Garcia cannot establish any
prejudice, because Garcia was aware of Bruton issues and nevertheless chose to plead
guilty.
But even if Garcia were not aware of the Bruton issue his standby counsel
mentioned, he misunderstands the import of that issue. As the attorney’s letter makes clear,
it was Garcia’s own statement that implicated his co-Defendants. Garcia could claim no
5

CASE 0:15-cr-00260-PAM-TNL Doc. 1037 Filed 08/13/20 Page 6 of 10

prejudice from the introduction of his own statements at his trial.

Rather, his co-

Defendants would seek severance of their trials from Garcia’s because of his incriminating
statements, not the other way around. And in any event, a Bruton severance is only for
purposes of trial and has no effect on the substantive charges. In other words, the Bruton
issue would not have changed Garcia’s inclusion in the underlying conspiracy, as he
apparently believes. Garcia has not established ineffective assistance of counsel in this
regard.
2.

Mental health evaluation

There is no record evidence that Garcia suffered from any mental-health issues and
therefore should have been subjected to a mental-health evaluation. As noted, the Court
found that Garcia was more than competent to represent himself. (See also Sentencing
Hr’g Tr. at 27 (statement of standby counsel: “I’ve never seen a pro se defendant handle
himself as well as Mr. Garcia has and to keep track of the real issues that are involved in a
case like this one.”).) Absent a claim that his alleged mental-health issues rendered him
incompetent to represent himself, his attorney’s failure to request an evaluation caused him
no prejudice.
3.

Failure to raise issues on appeal

The issues Garcia’s appellate counsel allegedly failed to raise on appeal are the same
issues Garcia raises in Grounds Three through Six of his Motion. As discussed below with
respect to these Grounds, Garcia has not established any error, and thus it was not
ineffective assistance to fail to raise these issues on appeal.

6

CASE 0:15-cr-00260-PAM-TNL Doc. 1037 Filed 08/13/20 Page 7 of 10

B.

Sufficiency of the Evidence
In Ground Three, Garcia claims that there was insufficient evidence to convict him

of possession with intent to distribute. But Garcia pled guilty to possession with intent to
distribute. That plea forecloses any challenge to the sufficiency of the evidence supporting
his conviction. United States v. Alvarado-Sanchez. 383 F. App’x 576, 577 (8th Cir. 2010).
Ground Three fails.
C.

Appellate Review
In Ground Four, Garcia claims that he was not required to object to his sentence in

order for the Court of Appeals to review that sentence for reasonableness. He is correct.
See United States v. Burnette. 518 F.3d 942, 946 (8th Cir. 2008) (noting that no objection
is required “to preserve an attack on the substantive reasonableness of a sentence”). But
even if this argument were appropriately presented to the Court, it is without merit. This
Court has no jurisdiction to determine the standard of review that the Court of Appeals
applies.
What Garcia appears to challenge in Ground Four is the Court of Appeals’
assumption that he had not objected to this Court’s drug-quantity determinations, leading
the appellate court to review those determinations only for plain error. See id. (“A drug
quantity is a finding of fact reviewed for clear error when objected to at sentencing, or plain
error if the defendant does not object.”). He notes that he objected to the PSR’s statement
that he possessed the methamphetamine with the intent to distribute it, because his intent
was to use the methamphetamine himself.

7

CASE 0:15-cr-00260-PAM-TNL Doc. 1037 Filed 08/13/20 Page 8 of 10

In other words, his PSR objection was not that the Court failed to separate the
quantity of methamphetamine for use from the quantity for distribution, but that he did not
intend to distribute any of the methamphetamine.

However, Garcia pled guilty to

possession with intent to distribute under 21 U.S.C. § 841(a)(1), not simple possession.
And although he claimed at the plea hearing that “the main thing was use,” he admitted
that the “partial purpose, at least” was distribution. (Plea Hr’g Tr. at 22.) The Court
therefore properly overruled his objections to the PSR, and the Court of Appeals evaluated
his appeal accordingly.
D.

Grouping
In Ground Five, Garcia contends that the Court erred in “grouping” his possession-

with-intent-to-distribute with simple possession. But there was no grouping in Garcia’s
case. He pled guilty to a single count of possession with intent to distribute. What he in
fact claims is that this Court erred in not making a factual finding regarding what amount
of methamphetamine Garcia intended to distribute and what amount he intended to use,
and that it was ineffective for his counsel not to argue this issue on appeal.
But Garcia’s counsel did raise this issue on appeal. See Escobar. 909 F.3d at 244
(stating that Garcia argued that U.S.S.G. § 2D 1.1 “required the district court to exclude the
portion of the methamphetamine intended for his personal use in calculating his base
offense level”). His claim of ineffective assistance on this basis fails. And because the
Court of Appeals denied Garcia’s appeal on this issue, Garcia cannot establish any error.
This Ground fails.

8

CASE 0:15-cr-00260-PAM-TNL Doc. 1037 Filed 08/13/20 Page 9 of 10

E.

Relevant Conduct
Ground Six raises yet another challenge to the factual finding regarding drug

quantity. Again, Garcia argues that it was error for the Court to fail to separate the drugs
Garcia intended to distribute from those he intended for personal use. As discussed
previously, his challenges to the Court’s drug-quantity calculations fail.
Garcia also argues that the use of his criminal history to increase his sentence
violates Double Jeopardy. This contention is without merit. A defendant’s criminal history
is an appropriate factor to use in calculating a sentence. See United States v. Mattix. 404
F.3d 1037, 1038 (8th Cir. 2005) (“Courts have long considered prior criminal history as a
sentencing factor . ...”). Ground Six fails.
F.

Information/Indictment
Garcia’s argument in Ground Seven warrants no consideration. He agreed to

proceed by information and signed a waiver of indictment. (Plea Hr’g Tr. at 13.) In
addition, the Court questioned Garcia about the indictment process and he stated under
oath that he voluntarily waived indictment. (Id at 12-13.) Ground Seven is dismissed.
G.

Certificate of Appealability
Garcia may not appeal this Court’s ruling on his Motion to Vacate without a

certificate of appealability. 28 U.S.C. § 2253(c)(1)(B). But such a certificate requires
Garcia to make “a substantial showing of the denial of a constitutional right.” Id.
§ 2253(c)(2); see also Kramer v. Kemna. 21 F.3d 305, 307 (8th Cir. 1994) (“Good faith
and lack of frivolousness, without more, do not serve as sufficient bases for issuance of a
certificate under 28 U.S.C. § 2253.”). Garcia must establish that the issues he raises are
9

CASE 0:15-cr-00260-PAM-TNL Doc.1037 Filed 08/13/20 Page 10 of 10

“debatable among reasonable jurists,” that different courts “could resolve the issues
differently,” or that the issues otherwise “deserve further proceedings.” Cox v. Norris, 133
F.3d 565, 569 (8th Cir. 1997). Garcia has not met this high standard, and no certificate of
appealability will issue.
CONCLUSION
Accordingly, IT IS HEREBY ORDERED that Defendant’s Motion to Vacate
(Docket No. 1015) is DENIED.
LET JUDGMENT BE ENTERED ACCORDINGLY.

Dated:

August 13, 2020

s/PauCA. Magnuson
Paul A. Magnuson
United States District Court Judge

10

